Semiannual Report
to the Congress




     April 2010
Lake Powell, located in Utah and Arizona, is the cover
image of the April 2010 Semiannual Report, reflecting the
recent Office of Inspector General (OIG) focus on energy
issues—both traditional oil and gas and alternative fuels.
Lake Powell, named for western explorer James Wesley
Powell, is a water reservoir behind the Glen Canyon Dam,
whose construction began during the Eisenhower Adminis-
tration. In addition, this Semiannual Report cover also initi-
ates the new OIG seal. The nine stars in the seal represent
the nine primary bureaus and offices of the Department
of the Interior. The eagle, displayed rising, is symbolic of
American government.
Staff               	   Contents				                 April 2010

Editorial           	   About DOI and OIG			                ii
Donald Cairns
Scott Culver
Robert Gettlin
                    	   Message From the
Joann Gauzza        	   Inspector General	 			             iii
Mary Maruca
Scott Swanson

Images              	   OIG Operating Principles		         v
Bryan Brazil        	
Stock Photography
                    	   OIG Initiatives					                1
Production          	
Mary Maruca         	   Significant Narrative Summaries	    5
Visit us at:
www.doioig.gov
                    	   Appendices					                   27




                                                                  i
     About DOI and OIG	

         The U.S. Department of the Interior (DOI) is a large, decentralized agency with more than
     67,000 employees and 236,000 volunteers located at approximately 2,400 operating locations across the
     United States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500 million
     acres of America’s public land, or about one-fifth of the land in the United States, and 56 million acres of
     Indian Trust lands. DOI also has responsibility for a variety of water and underwater resources, including 479
     dams and 348 reservoirs and approximately 8,526 active oil and gas leases on 44 million acres of the Outer
     Continental Shelf. Approximately 30 percent of the nation’s energy production comes from projects on DOI-
     managed lands and offshore areas. DOI scientists conduct a wide range of research on biology, geology, and
     water to provide land and resource managers with critical information for sound decisionmaking. DOI lands
     also provide outstanding recreational and cultural opportunities to numerous visitors worldwide.

         The Office of Inspector General (OIG) promotes excellence, integrity, and accountability in
     these DOI programs. With fewer than 300 employees, the organization is driven by a keen sense of mission
     and dedicated to providing products and services that impact DOI mission results.

         Images on the following pages recognize the various forms in which the Earth provides us with the
     essentials of life—energy from water, fuel from underground, or new alternative energy that is being devel-
     oped from the air. During these changing times, when resources require ever greater stewardship, it helps to
     remember the diversity of the Earth, which generously continues to provide.




       Lake Powell holds water from
       Colorado, Utah, Wyoming, and
       New Mexico, storing it behind
       Glen Canyon Dam. This water
       supplies Arizona, Nevada and
       California. Lake Powell also is
       a popular recreational area.
       The dam and its waters now
       cover extraordinary canyons
       and native art that are no
       longer visible.



ii
                                                                                          Back to Toc
Message from the
Inspector General

     More than three decades ago, the 95th Congress enacted the Inspector General Act of 1978
(IG Act) to “reorganize the executive branch of the Government and increase its economy and
efficiency by establishing Offices of Inspector General within the Departments.” The IG Act
came about in the post-Watergate period when much legislation was focused on good gover-
nance, ethics in the public sphere, and the need to diminish waste, fraud, and mismanagement
of public resources—both financial and natural. Although the Act was updated twice over the
ensuing 30 years, the law that exists today retains its original integrity and continues to serve
the Congress and the public much as it did at its inception.

    As one of the Cabinet-level IG organizations created by the original law, DOI OIG’s
mission has long been to foster accountability in the programs, operations, and management
of DOI. We continuously review the many areas and functions for which DOI has oversight—
from the use of our nation’s land, water, mineral, and energy resources to the operations of our
national parks and the scientific research conducted by DOI bureaus—to ensure that they
function in the best interest of the American people.

    During the six months from October 1, 2009 to March 31, 2010, our reports focused on
such areas as school violence prevention at Bureau of Indian Education schools, decentraliza-
tion in the DOI roads programs, and the maintenance of museum collections, accountability
and preservation. In each instance, the responses of the Department and its bureaus to our
recommendations demonstrated DOI’s goal of accountability and preserving the public trust.

    We also addressed energy issues, specifically Beneficial Use Deductions and the Cape Wind
Project, in the use of alternative sources—a central focus of current DOI work resulting from
Secretary Salazar’s New Energy Frontier Initiative. The beneficial use program in the arena of
traditional energy development allows companies that drill on Federal and Indian lands as well
as offshore to claim royalty deductions on the portion of oil and gas they produce to operate
on-site lease operations. We issued a series of recommendations with the aim of improving the
methods and systems that the Bureau of Land Management and the Minerals and Management
Service employ to monitor beneficial use and to ensure that every dollar in royalties that should
be collected for the government is in fact brought into the Treasury.

    We investigated DOI’s review and permitting process associated with an offshore wind
farm proposed by the company, Cape Wind Associates, to be located in Nantucket Sound off




                                                                                                    iii
     the coast of Massachusetts. The Cape Wind Project has received extensive media coverage.
     Now, following the recent decision by Secretary Salazar, it has just become the Nation’s first
     approved offshore wind energy project. Our investigation, initiated in 2008, demonstrated
     our early recognition that while the future is with alternative energy, projects still need to be
     carefully analyzed to ensure they are effectively and efficiently developed. Our Cape Wind
     report revealed opportunities to improve the process used by DOI agencies, and focused on
     the need for greater inclusion and transparency in decision making that should benefit the
     approval process for other projects in the future.

          Overall, the OIG continues to highlight promising practices in government in order to
     better serve our customers. To ensure that our work remains grounded in a well-defined
     mission and goals capable of increasing our effectiveness, we have committed ourselves to
     a new strategic planning process. The additional effort required to accomplish this, above
     and beyond the daily programmatic reviews and scrutiny conducted by our auditors, inves-
     tigators and other OIG staff, will help us evolve, like the IG Act itself, into a stronger more
     efficient, and integrated organization. In this way we are committing ourselves to being
     fully vested in the Department’s successes as a steward over the vast but precious natural
     resources of this great country.




                                              Mary L. Kendall
                                              Acting Inspector General




iv
                                                                              Back to Toc
OIG Operating Principles

Mission
    The mission of the OIG is to provide independent oversight to pro-
mote integrity, accountability, effectiveness, and efficiency within the
programs, operations, and management of DOI.

Values
     The OIG operates as an independent oversight organization respon-
sible to the Secretary, the Congress and the American people. We must
observe and exhibit high ethical standards and have the courage to tell
our customers and stake holders what they need to know, and not what
they simply wish to hear. Our core values help us to achieve our responsi-
bilities and maintain this high ethical standard. We:

   •Place our highest value in the integrity of our employees
       and our products;

   •Strive for continuous improvement; and

   •Believe in the limitless potential of our employees.

Responsibilities
     The OIG is responsible for independently and objectively identifying
risks and vulnerabilities that directly impact DOI’s ability to accomplish
its mission. We are required to keep the Secretary and the Congress fully
and currently informed about problems and deficiencies relating to the
administration of DOI programs and operations. Effective implementa-
tion of this mandate addresses the public’s demand for greater account-
ability and integrity in the administration of government programs and
operations and addresses the demand for programs that work better, cost
less, and get the results Americans care about most.

Activities
     The OIG accomplishes its mission by conducting audits, inspections,
evaluations, assessments, and investigations relating to DOI programs
and operations. Our activities are tied directly to DOI major responsibili-
ties and are designed to assist DOI in developing solutions for its most
serious management and program challenges, most notably cross-cutting
or DOI-wide issues. These activities are also designed to ensure that we
keep critical issues prominent, thus providing opportunities to influence
key decisionmakers and increase the likelihood that we will achieve
desired outcomes and results that benefit the public.



                                                                                         v
                                                                           Back to Toc
Office of Inspector General


                  From traditional energy (e.g., hydroelectric power) to
                  alternative fuels, accountability for public resources is the
                  focus of the OIG. Image from Glen Canyon Dam.




         City Tavern is one of a series of six
         images by Louis S. Glanzman on display
         in Philadelphia Historical Park, PA. It
         captures the formal and informal
         discussions held during the early years
         of nationbuilding.
OIG Trends, Themes, and Initiatives

    The mission of the OIG is to promote excellence, integrity, and
accountability in the programs, operations and management of DOI.
Whether our products are produced by investigators, auditors, or Re-
covery Oversight Office (ROO) specialists who track stimulus spending
under the American Recovery and Reinvestment Act (ARRA), we are
committed to ensuring full accountability for DOI programs.

    A major area of OIG inquiry has involved energy issues—both tradi-
tional oil and gas as well as alternative energy exploration and develop-
ment. In each instance, OIG investigators and auditors have inquired into
whether the agencies providing oversight are fully accountable for these
resources and are managing them in the best interests of the public, as
well as whether or not those who would develop such resources (i.e., pri-
vate companies) also develop them responsibly and pay back in royalty
fees what is owed for the development of such resources.

     In April—the month in which we celebrate Earth Day as well as
the month when we demonstrate the OIG’s accountability through our
semiannual report to Congress—a focus on energy as a high priority for
DOI seems fitting. Specifically, in fiscal year 2010, the Department has
increased its investment in renewable energy initiatives (wind and other
alternative sources) considerably under the New Energy Frontier initia-
tive. Once this initiative matures and the technologies reach full produc-
tion, royalties from these programs will add to the already staggering
$42.3 billion collected between FY 2005 and FY 2008 through DOI’s
conventional energy programs.

    Questions of administrative accountability arose with other aspects
of DOI’s energy resources. Geothermal energy is a renewable resource
managed for DOI predominately by the Bureau of Land Management
(BLM). Changes through the years to the Geothermal Steam Act of 1970
and subsequent regulations from MMS complicated the ways in which
companies calculated royalty deductions. In this instance, we looked at
ways to improve administrative protocols to ensure that accurate royalty
payments are made. Similarly, in the case of beneficial use, our inquiry
revealed the need for administrative and program adjustments by BLM
and MMS to ensure accurate royalty returns.




                                                                             1
        The accountability associated with American Recovery and Reinvest-
    ment Act (ARRA) funds has continued to be an important OIG focus. DOI
    has distributed significant sums of ARRA monies to various DOI locations.
    In addition to promoting accountability in the programs that receive the
    ARRA funds, OIG has been conducting capacity building to provide techni-
    cal assistance and training for auditors and investigators as far away as the
    U.S. Territories and Compact Nations in the South Pacific.

        The OIG Recovery Oversight Office (ROO) has also developed a num-
    ber of collaborative practices that help them respond flexibly to changes
    in DOI plans and schedules for obligating and awarding ARRA dollars. To
    encourage fully interactive communication on such subjects, ROO staff de-
    veloped a protocol to help DOI evaluate barriers to ARRA monies reaching
    project sites quickly. Staff visited units across DOI to familiarize them-
    selves with potential hurdles to acceleration, and regularly advised DOI of
    their findings. Such initiative is a trademark of ROO’s own high standards
    of accountability to its DOI customers.

         Accountability is a key element of the work OIG regularly accomplish-
    es. It is fundamental to our mission. It encourages a culture of personal and
    professional responsibility and integrity in those we work with and in those
    whose work we impact.




2
                                                                            Back to Toc
Black Butte, California, near Mt. Shasta, is part of the
Cascade mountain range, where some of America’s most
dramatic landscapes, as well as its significant exploration
of hydro and geothermal power have occurred. Photo by
Bryan Brazil.




                                                              3
Department of the Interior


                 DOI manages far-flung resources across and beyond the
                 borders of the continental U.S., which presents both
                 management challenges and opportunities. Image of Red
                 Rock near Lake Mead in Nevada.




        Louis Glanzman’s interpretation of
        travelers on the Mayflower. Part of
        a painting on wooden panels in the
        Glanzman collection.
Cape Wind Associates, LLC: Investigating
A Proposed Alternative Energy Project
    In 2008, the OIG received complaints regarding an MMS Na-
tional Environmental Policy Act (NEPA) review of an offshore wind
farm proposed by Cape Wind Associates, LLC. The location was in
Nantucket Sound off the coast of Massachusetts.

    The OIG investigation revealed that several Federal agencies
working with MMS to prepare the final Environmental Impact State-
ment (EIS) required by NEPA felt its completion had been rushed by
the bureau’s desire to publish the report before the end of the previ-
ous administration. None of the agencies believed, however, that the
expedited timeline affected their overall conclusions.

     Cooperating Federal agencies, among them FWS and the U.S.
Coast Guard, indicated that the timeline imposed by MMS pressed
them into acting atypically. It restricted their ability to be as thorough
as they would have liked in conducting their review.

     MMS also consulted with the Federal Aviation Administration
outside of the NEPA process. In prior years, FAA had issued state-
ments that the Cape Wind Project would not adversely impact air
navigation in the Nantucket Sound area. Days before the final EIS
was published, however, MMS learned that FAA had concluded a
study indicating the project would result in a “Presumed Hazard”
to aircraft. Nevertheless, MMS published the EIS without acknowl-
edging the new FAA finding.

     The Cape Wind project began in November 2001 when Cape
Wind Associates applied for a permit with the U.S. Army Corps of
Engineers. They planned to construct an offshore wind farm in Nan-
tucket Sound. If constructed, it would be the first offshore wind farm
in the United States.

    In November 2004, the Army Corps of Engineers completed its
draft EIS of the project. Then in 2005, the Energy Policy Act became
law. The new act required MMS to develop a program and regula-
tions for leasing offshore areas for renewable energy. Thus, MMS
became the lead federal agency responsible for Cape Wind’s envi-
ronmental review. In January 2008, MMS released its own draft EIS,
followed in June by draft regulations for alternate energy facilities on
the Outer Continental Shelf.




                                                                             5
         Complaints to DOI surfaced in July, ranging from allegations that
    MMS was giving Cape Wind Associates a “sweetheart deal” to the possibil-
    ity of the project being financially and technologically infeasible. Lack of
    prior Tribal consultation was also cited, along with the lack of regulations
    for offshore renewable energy projects. The Cape Wind investigation ad-
    dressed the multiple issues raised by complainants, and the results were for-
    warded to DOI. The Secretary recently decided in favor of the wind farm,
    making this the Nation’s first approved offshore wind energy project.

    Calculating Geothermal Royalties
         Geothermal energy is a renewable resource extracted from heat stored
    in the earth. Such resources managed by BLM generate approximately 50
    percent of the Nation’s geothermal energy. Between June 2004 and June
    2009 MMS collected geothermal revenues totaling $129.6 million.

        The Geothermal Steam Act of 1970 authorizes DOI to issue leases for
    development of geothermal resources on the Federal lands it administers.
    We noted that 16 companies in three states produced geothermal energy
    from DOI lands.

        Under the Geothermal Steam Act, calculating royalties only required
    developers to establish a sales price upon which royalties were calculated.
    Over time, however, companies began using geothermal resources for
    commercial production, generating electricity on site. As a result, in 1991,
    MMS issued new regulations calling for subtracting or “netting back” the
    cost of generation and transmission from revenue sales.

        Another change in the law in 2005 further altered the way in which
    calculations were made. We conducted our evaluation to determine what
    royalty rates actually were paid by producing companies using the netback
    valuation method and how these rates compared with the rates outlined in
    the 2005 restructuring, as well as how MMS validated the accuracy of the
    data the bureau received.

         We found that two of eight companies that we reviewed consistently
    claimed the maximum deduction percentage possible and another four
    companies claimed the maximum deduction percentage in at least six of the
    12 months we reviewed. We also found that while MMS did perform audits
    that ensured that only allowable deductions were claimed, it did not per-
    form a sufficient number of audits to ensure that all geothermal companies
    consistently deducted only allowable expenses.




6
     We recommended that MMS improve its audit effectiveness by
targeting high risk companies. We also recommended, among other sug-
gestions, reevaluating the appropriateness of earlier deduction allowances
in the light of royalty rates established by more recent legislation (the
EPAct) and the low royalty rates actually paid. We proposed implement-
ing checks to ensure companies submit all required documentation in
addition to the development of review procedures to ensure that monthly
deduction percentages are properly calculated.

BLM and MMS Beneficial Use Deductions:
An Inspection Report
     DOI plays a key role in managing the Nation’s energy production.
Offshore and onshore operations on Federal and Indian lands account for
26 percent of the natural gas and 32 percent of the oil produced annu-
ally in the United States. In fiscal year 2008, the sales value of oil and
gas produced by companies with leases to operate on Federal and Indian
lands and offshore amounted to almost $100 billion, generating royalties
of $12.6 billion to the U.S. Government. These royalties, along with other
revenues collected by MMS constitute one of the largest non-tax sources
of income to the United States Treasury. With energy demand, especially
for natural gas, projected to increase steadily during the coming decades,
MMS must perform strong, efficient, and consistent oversight to ensure
that every royalty dollar owed is collected and accounted for from the
companies that extract valuable energy resources from public lands
and waters.

    As part of federal oil and gas lease agreements, companies may claim
royalty deductions on the portion of the oil and gas they use to run on-site
operations. For example, they may use natural gas to power drilling and
pumping. This royalty free use is referred to as “beneficial use.” Unfor-
tunately, in a practice involving onshore and offshore oil and gas produc-
tion, MMS and BLM have failed to carry out effective oversight and
management to ensure all royalty income is collected.

     We found a substantial amount of gas claimed as beneficial use,
although the use of oil was minimal. We estimated that the total value of
royalty-free beneficial use gas in calendar year 2008 was $1.16 billion,
with a corresponding potential royalty value of $145 million. We also
found 43 instances in which companies claimed more than 100 percent
of their production as beneficial use deductions during a 3-month period.




                                                                               7
    Upon further research, we found only one instance to be misreporting by
    a company and the other 42 instances to be offshore cases that were not
    truly beneficial use transactions.

         Approvals by oversight bureaus are not usually required for
    beneficial use and, typically, beneficial use of oil and gas is estimated
    rather than measured. Both MMS and BLM fail to coordinate approval
    requirements, and lack a verification process for beneficial use. We
    recommended development of national beneficial use guidelines,
    implementation of controls to identify instances when companies
    report more than 100 percent of oil and gas retrievals as beneficial use,
    development of separate codes to identify buy-back volumes, a national
    verification process, and a system to review all denied beneficial use ap-
    plications to ensure that deductions still are not being claimed on identi-
    fied properties. Implementation of these recommendations should help
    BLM and MMS to validate that all deductions for beneficial use are for
    authorized purposes.




                                        Beneficial use applies primarily to offshore resources
                                        where the float platforms resemble cities with sometimes
                                        complex energy requirements.  




8
New Unit Investigates Energy Issues
    During this reporting period, the Energy Investigations Unit (EIU)
continued its work on 19 energy related investigations. To date, these
complex investigations have identified an estimated $17.2 million in
unpaid or underpaid royalties. Recovery of the lost royalties with
associated damages and penalties could generate as much as $52.3
million once the investigations are completed and referred to the
Department of Justice.

     The EIU works collaboratively with the Royalty Initiatives Group
(RIG) within the OIG’s Office of Audits, Inspections and Evaluations,
thus ensuring the greatest amount of expertise from audit and investiga-
tions experts is brought forward to address OIG cases. RIG auditors
have supported EIU investigations, and EIU agents have participated in
RIG planning and projects. Additionally, EIU has identified and referred
several matters to RIG for its consideration. The EIU and RIG jointly
provided presentations at a meeting of the members of the State and
Tribal Royalty Auditor Committee (STRAC) and at a BLM law enforce-
ment supervisors conference. The attendees at both meetings received
training on recognizing and reporting suspected fraud to OIG. Addition-
ally, participants learned about the OIG mission and the unique roles of
EIU and RIG in relation to DOI’s energy programs.

    EIU has also established a strong working relationship with
BLM’s Special Investigations Group (SIG). This relationship
continues to be strengthened as the two groups work jointly on
onshore energy investigations.

Macho B: OIG Investigates Jaguar Death
    Jaguars once ranged from southern South America to the southwest-
ern United States, particularly in areas such as Arizona and New Mexico.
Considered the largest cats in the Western Hemisphere, they are protect-
ed under the Endangered Species Act. Though rarely seen in this country
and primarily a solitary animal, jaguars began reappearing in Arizona




                                                                           9
     and New Mexico in the 1990s, captured on film when they tripped wires
     used in camera traps to study other species.

         Macho B, a jaguar regarded by some to have been an Arizona resident
     for as long as 13 years, was captured in February 2009 by the Arizona
     Game and Fish Department (AGFD) in a leg-hold snare used in an AGFD
     mountain lion and black bear project in the Coronado National Forest. He
     was equipped with a GPS to follow his movements, and set free. An injury
     was suspected shortly thereafter, when the GPS indicated no movement
     from the animal.

         Macho B was recaptured on March 2, 2010 and transported to the
     Phoenix Zoo, where veterinarians, in consultation with the U.S. Fish and
     Wildlife Service, which oversees Endangered Species Act protections,
     determined that the animal suffered from irreversible renal failure. FWS
     authorized euthanizing the animal the same day.

         Subsequent media coverage and public debate led to the Arizona At-
     torney General’s Office announcing an investigation into circumstances
     surrounding the capture, recapture and death of Macho B. An FWS Law
     Enforcement investigation followed, which caused the Attorney General’s
     Office to discontinue its investigation. OIG opened its own investigation in
     response to a congressional request.

         As a result, we found that AGFD knew in December 2008 of Macho
     B’s presence in the region of its lion and bear study but did not consult
     with FWS to obtain an incidental take permit (required when there is the
     possibility of capturing an endangered species) and biological opinion
     required by the Endangered Species Act. Absent these two requirements,
     AGFD lacked authority to capture Macho B, according to FWS biolo-
     gists. In addition, an FWS field supervisor incorrectly approved a cosmetic
     necropsy rather than complete necropsy, casting doubt on an accurate
     determination of the animal’s death. Results of our investigation have been
     provided to FWS.




10
Dangers of Decentralization
With DOI Roads Programs
     Five Department of the Interior (DOI) bureaus manage approxi-
mately 186,713 miles of roads designated for either public or administra-
tive use. The roads inventory includes unpaved (dirt and gravel primar-
ily) and paved roads. More than 50 percent of the total miles managed
by DOI have been identified as being in poor condition. The deferred
maintenance costs associated with DOI roads are estimated at $181 mil-
lion for the Bureau of Indian Affairs (BIA), $4.9 billion for the National
Park Service (NPS), $1.5 billion for the U.S. Fish and Wildlife Service
(FWS), and as much as $276 for the Bureau of Land Management
(BLM).

    Three programs jointly managed by DOI and the Department of
Transportation (DOT) provide oversight and transportation engineering
services for roads and highways giving access to or located within
federally owned lands, national parks and Indian reservations.

    To determine the status of DOI’s roads program, OIG focused on
whether the bureaus had identified their roads needs sufficiently, whether
they had mechanisms in place to prioritize these needs, whether they had


                                                  The extensive DOI network of roads covers more than  
                                                  186, 000 miles through national parks and other bureau
                                                  managed areas designated for both public
                                                  and administrative purposes.




                                                                                                           11
     developed implementation plans for subsequent projects, and whether they
     could account for funds expended on roads projects. Our work examined
     bureau roads inventories, prioritization and implementation processes, and fi-
     nally, accountability. In this last area of focus, we recognized that all bureaus
     had the ability to track spending, but that processes might not be in place to
     enable each of them to adequately detect misuse and mismanagement of
     allocated funds.

          During our evaluation, we found significant inaccuracies in roads inven-
     tories, which impact the ability of bureaus to identify their needs correctly.
     We also noted inefficiencies in the processes that bureaus use to prioritize
     needs. All bureaus had project implementation plans in place and tracked
     their spending, but two bureaus — BIA and BLM — lacked appropriate safe-
     guards to adequately detect misuse and mismanagement of funds.

          Overall, the bureaus demonstrated various levels of efficiency in the
     areas we evaluated, with NPS notably the best due to its automated system
     for inventory and condition assessments, as well as its process for project
     implementation and financial accountability. We found that lack of central-
     ized oversight for the bureaus at the departmental level produced inconsisten-
     cies as well as a lack of program transparency and accountability. To improve
     management, increase consistency, and streamline communications with
     DOT, with whom DOI jointly manages most of its roads, we recommended
     establishing one DOI-level office to oversee the roads program.

     Evaluating Quality of School Safety Measures
         During the 2007-2008 school year, Bureau of Indian Education (BIE)-
     funded schools had a student enrollment of approximately 48,000. These
     students attended schools either funded directly by BIE or through grant
     agreements managed by the tribes. We assessed safety measures and proce-
     dures at 22 schools, 6 of them operated by BIE and the remainder through
     grant agreements. Since we found no laws, presidential orders, or directives
     outlining safety measures for Indian schools, we researched safety measures
     in place for non-native schools and evaluated our school sample according to
     the existence of the following: security fencing, surveillance systems, visitor
     procedures, and emergency preparedness procedures.




12
    Although we found few statistics on potential violence indicators at
Indian schools, we uncovered a wealth of supporting anecdotal evidence
during our visits to schools, such as confiscated weapons, signs of gang
activity, and substance abuse. We also found that schools did not have
camera surveillance systems, security guards, and adequate physical
security. Teachers, administrators and other staff were untrained in basic
violence prevention such as anger management, bully prevention, and
gang awareness.

    We proposed development of safety policies to establish minimum
safeguards, prepare plans of action to (1) evaluate safety of each facility
and (2) grant agreements, and finally ensure that teachers receiving
BIE funding have training in gang indicators, conflict resolution, and
related topics.

NLCS Advocacy Investigated
    DOI established the National Landscape Conservation System
(NLCS) under BLM through administrative action in 2000. This system
was intended to “conserve, protect and restore nationally significant land-
scapes recognized for their cultural, ecological and scientific values.” It
contains more than 850 federally-recognized areas equaling approximately
26 million acres.

    Since creation of the system occurred through administrative rather
than congressional action, it could have been dissolved at any time. On
March 30, 2009, President Obama signed the Omnibus Public Lands Man-
agement Act, making NLCS a statutory program within BLM. Prior to this
event, however, we received a complaint that prompted us to investigate
the program to determine whether anti-lobbying laws had been followed.

    DOI does engage in partnerships to foster its mission, though federal
statutes have been enacted to govern the degree of such interaction be-
tween federal and nonfederal groups. Our investigation determined that
numerous activities and communication occurred between NLCS officials
and nongovernmental organizations (NGOs), including discussions about
the NLCS budget and about BLM employees working on joint projects




                                                                              13
     with certain NGOs. Our further investigation revealed that communication
     between NLCS and NGOs gave the appearance that federal employees were
     less than objective and created the appearance of conflicts of interest or legal
     violations. We also uncovered a general disregard for establishing and main-
     taining boundaries among BLM and its various partners.

     Museum Collections:
     Accountability Reviewed
          DOI has a long history of challenges associated with carrying out its
     stewardship responsibilities for museum collections. Its collections are
     second in size only to the Smithsonian Institution. DOI manages collec-
     tions estimated to include more than 146 million items of artwork, artifacts,
     and other museum objects at 625 DOI and at least 1,020 non-DOI facilities.
     These vary from ethnographical objects associated with Native American life
     to fossil remains of extant animals. At some sites, physical inventories have
     never been conducted.

         Our audit found widespread failure to execute the three key processes
     for accountability over museum collections – accessioning, cataloging, and
     inventorying. DOI facilities have thousands of boxes containing millions of
     objects that have neither been identified nor accounted for in the collection.
     As a result, these objects are unavailable for research, education, or display.
     They are also subject to theft, deterioration, and damage.

         DOI has even less knowledge of its collections housed in non-DOI
     facilities. We found that DOI lacked inventory listings of the collections held
     by outside facilities such as the Denver Museum of Nature and Science and
     the Maxwell Museum of Anthropology in Albuquerque, NM. It also did not
     conduct the required annual physical inventories. Four bureaus admitted they
     do not even know all facilities that hold their museum collections.

         These widespread accountability issues are due to poor program manage-
     ment, ineffective oversight, poor reporting, and an insufficient allocation of
     resources. Many of these issues were documented as long ago as 1990 when
     we issued our audit report “Accountability and Control over Artwork and
     Artifacts” (Report No. 90-83). In 1993, DOI identified lack of accountability




14
and control of museum property as one of its four most critical mate-
rial weaknesses. To address this weakness, it developed standards for
managing museum collections. Unfortunately, bureaus do not follow that
guidance. Establishing accountability over its collections has not been a
priority.

    Among our recommendations, we proposed greater DOI oversight of
bureau museum programs as well as a requirement that every site’s Scope
of Collection statement be updated and reviewed on a regular five-year
cycle. We found that DOI also needs to improve preservation practices
over its museum collections. To protect countless artwork, artifacts, and
other museum objects, preservation of the collections at many DOI sites
needs to be significantly improved.

    We followed our audit report of DOI collections with specific in-
spection reports presenting the detailed results of the preservation work
completed under the DOI audit. We looked at five bureaus: BIA, BLM,
Bureau of Reclamation (BOR), Fish and Wildlife Service (FWS), and
NPS. BLM demonstrated adequate preservation practices at the sites we
evaluated. We made recommendations to improve preservation practices
at BOR, FWS, and NPS sites evaluated. We also provided recommenda-
tions to BIA, whose sites ranged from exhibiting only a small number of
deficiencies to some numerous and extensive ones.

DOI Appraisal Operations Evaluated
    The Appraisal Services Directorate (ASD) is not the strong, inde-
pendent appraisal organization envisioned at its inception in 2003. Both
external and internal obstacles impede its ability to provide timely, inde-
pendent appraisals and valuation services.

     External obstacles make it difficult for the organization to assume full
control over the appraisal function. Specifically, the National Business
Center (NBC), of which ASD is a part, does not provide timely support
services to the directorate and has little incentive to do so. In addition,
bureau clients refute the need for a consolidated organization and have
taken actions to recover control of the appraisal function. Finally, as
the lead for all agencies involved, the DOI’s Office of Policy,




                                                                                15
     Management and Budget (PMB) has not actively intervened to
     address these challenges.

         Internally, the absence of strong leadership, caused by ASD’s placement
     within NBC, has weakened ASD’s ability to perform the appraisal function.
     As a result, ASD overly relies on PMB to address contracting frustrations and
     combat efforts by the bureaus to regain control over appraisals. We made rec-
     ommendations designed to ensure that ASD has full control of the contract-
     ing process, strong and effective technical leadership, and an organizational
     placement that enables ASD to succeed.

     DOI Firearms Inventory
     and Control Assessed
         The loss of firearms by Federal law enforcement agencies poses serious
     risks, including the possibility that missing firearms may be used for crimi-
     nal activities. In 2003, the General Accounting Office (now Government
     Accountability Office or GAO) reported an NPS loss of 133 firearms. Five
     years later two of those firearms showed up in a Georgia pawn shop. An OIG
     investigation revealed that a retired commissioned law enforcement manager
     had stolen the weapons prior to retiring. Both he and his son later pawned
     these weapons for cash.

          DOI has eight law enforcement programs with more than 4,000 com-
     missioned personnel. Firearms are expected to be properly inventoried and
     securely guarded. We assessed whether adequate measures were in place to
     ensure that this occurred at the more than 26 sites we visited. Overall, we
     determined that, despite having policies and procedures in place, most pro-
     grams could not accurately account for cached firearms. We also found that
     half of DOI’s law enforcement personnel who are responsible for maintaining
     firearms caches had no property management or inventory training. DOI has
     no requirement that firearms property custodians receive such training.

         Also no standards exist for the physical security of firearms caches. Al-
     though all caches we observed had some type of access control, the degree of




16
security varied among bureaus and intra-bureau locations. Some bureaus
had full-time firearms coordinators. Other bureaus lacked such a position.
In these bureaus we found greater accountability issues.

George Wright Society Agreement
Reveals Systemic Lack of Oversight
     A cooperative agreement between NPS and the George Wright Soci-
ety, which had been modified 17 times during a five-year period and
had increased from $35,000 to more than $800,000, prompted an
investigation into NPS oversight of that agreement. Neither the NPS pro-
curement file nor the George Wright Society file contained the required
reporting documentation, and NPS provided virtually no oversight once
funds had been transferred.

    The George Wright Society was founded in 1980 to “foster excel-
lence in natural and cultural resource management, research, protection,
and interpretation in parks and equivalent reserves.” The Society is a
nonprofit organization with two employees, an executive director and a
conference coordinator/bookkeeper.

     The cooperative agreement between the Society and NPS was initial-
ly established in 2004 to support two conferences. We found, however,
that the agreement contained such generic objectives and a broad state-
ment of work that almost all modifications could fit within the “umbrella
mission” of the agreement.

    Overall, the investigation determined there was a systemic lack of
NPS oversight of the agreement. The way in which the agreement was
used suggests that it was not the appropriate vehicle for most of the
award modifications. Finally, six of the 11 members of the Board of




                                                                             17
     Directors for the Society are NPS employees. These individuals had signifi-
     cant input into several modifications which could violate conflict of interest
     statues and Federal Acquisition Regulations.

     Recovery Oversight Office
     Capacity Building
          Every year, OIG increases its capacity building commitment to provide
     technical assistance and training to the Public Auditors for the U.S. Territo-
     ries and Compact Nations in the South Pacific. This endeavor has taken on
     greater significance with the passage of the American Recovery and Rein-
     vestment Act (ARRA) and the corollary result of increased U.S. funding to
     these areas.

          In October 2009, the Recovery Oversight Office (ROO) provided pre-
     sentations for investigators, auditors, prosecutors, and contracting personnel
     at the Procurement and Grant Fraud Training Workshop in Guam. ROO staff
     also worked with Guam officials to develop a Recovery oversight initiative.

          At the request of the Republic of Palau National Public Auditor, ROO
     assisted officials in building a fraud program and developed and trained Pa-
     lau officials at the Fraud Program Support and Training Conference. These
     presentations enhance officials’ abilities to deter and detect fraud, examine
     strategies to comply with the new Recovery Act requirements, and promote
     effective practices for spending and oversight of Recovery funds. At the
     February Association of Pacific Island Public Auditors Conference, ROO
     coordinated with other federal agencies to provide briefings and discussions
     tailored to the needs of attendees concerning new ARRA requirements and
     fraud examinations and audits. More than 300 attended these sessions.

         In yet another effort to provide capacity building, ROO also developed
     an Insular Areas Recovery Act Review Guide to evaluate the systems of




18
internal controls developed by individual governments. This guide will
advance future efforts to monitor and report the implementation of Re-
covery Act programs.

     ROO Training Initiatives. ROO continued to provide technical
assistance and educational programs to DOI employees, as well as to
recipients of Recovery funds, ensuring that all involved groups are
well informed of the responsibilities associated with tracking and us-
ing the public’s money. In addition, ROO employees received training
to help them more effectively conduct their oversight responsibilities
and enhance their collaboration with the DOI. In turn, ROO developed a
training program to foster a cadre of acquisition fraud specialists within
the OIG to augment the organization’s investigative skills in the area of
procurement and grant fraud, as well as anti-trust violations.

     Approximately 40 BLM law enforcement officers received training
on the Recovery Act and ROO’s oversight role during their meeting in
Salt Lake City, UT. In response to an invitation from the Denver chapter
of the Association of Government Accountants, ROO staff presented on
the topics of the Recovery Act, ROO’s role, and DOI’s progress. Approx-
imately 150 people attended.

   In stand-alone presentations and as a component of DOI University’s
Contracting Officer’s Technical Representative course, OIG presenters


                                                  The Republic of Palau hosted ROO staff for a fraud
                                                  training program to enhance officials’ abilities to detect
                                                  and deter illicit activities.




                                                                                                               19
     taught DOI employees how to recognize and report indicators of potential
     fraud. To date, ROO has delivered fraud awareness training to approximate-
     ly 8400 employees from all six DOI agencies receiving Recovery funds.
     ROO also delivered a special presentation on fraud awareness and ethics to
     a contractor initially proposed for debarment. This was part of an admin-
     istrative compliance agreement. One Bureau of Reclamation (BOR) grant
     recipient received a fraud prevention briefing as proactive training.

          ROO staff presented at the March 2010 Native American Finance Of-
     ficers Conference, discussing the new single audit requirements and is-
     sues that have emerged as a result of the Recovery Act. Approximately 40
     auditors and tribal officials attended. In addition, a one-day training session
     was held in October 2009 for tribal independent public accountants. We
     reviewed the single audit quality and potential fraud issues, as well as tribal
     program topics.

         ROO provided training on Davis-Bacon Act requirements for paying
     prevailing wages on federal construction contracts and on Copeland “Anti-
     Kickback” Act compliance reporting provisions. We held sessions in Sac-
     ramento for BOR grant recipients and employees and in Portland for FWS
     and BLM employees.

     Mobilization
         During the first quarter of Fiscal Year 2010, the Secretary announced his
     goal to accelerate mobilization of Recovery Act projects by three months
     so that work would be “on-the-ground” by June 30, 2010. This goal re-
     quired contracts be awarded and funds obligated by no later than May 2010.
     Several bureaus further accelerated this obligation goal by requiring that all
     projects be awarded by March 31, 2010.

          In a spirit of collaboration with DOI and in response to this very chal-
     lenging environment, ROO provided DOI with periodic issues reports con-
     taining timely information for consideration and possible action. To accom-
     plish this task, ROO visited four NPS regional offices and 11 park units, two
     FWS regional offices, two BOR regional offices, five BIA regional offices,
     one USGS regional office and two project sites, and eight BLM state and
     six field offices to assess the impact of accelerated mobilization. ROO staff




20
assessed the accuracy of reported data, identified barriers to mobilization
success, and established relationships with field-level staff in the bureaus
critical to executing accelerated projects. DOI employees in the field had
the opportunity to provide informal, anecdotal information and concerns to
be shared with DOI management to facilitate communications and improve
implementation of Recovery projects. ROO continues its ongoing endeavor
to identify pressing issues to assist DOI with expediting Recovery
implementation efforts.

Suspension and Debarment
     Suspending or debarring irresponsible entities from doing business with
the Government is one way to help prevent waste of Recovery Act funds.
The OIG made 10 suspension and debarment referrals to DOI during this
semiannual period. Action was taken on seven, and administrative compli-
ance agreements were entered into with two parties. The use of administra-
tive agreements is an alternative approach that may be appropriate in certain
circumstances to protect federal interests, while offering an opportunity for
a company to rehabilitate and continue to receive federal awards.

    Approximately 86 DOI employees attended suspension and debarment
(S&D) training jointly conducted by ROO and the DOI. An additional 58
DOI employees— law enforcement agents and investigators, as well as
contracting officers from NPS, NBC, BOR, and BLM— along with 46 OIG
employees also received S&D training from ROO. These seminars cover
suspension and debarment purposes and procedures, the OIG’s role in coor-
dinating investigations with other federal agencies, and the ways in which
the DOI suspension and debarment official implements OIG recommenda-
tions for action. Training was also provided to 12 members of the American
Bar Association.

    Thanks to effective collaboration between ROO and Office of Acquisi-
tion and Property Management, DOI has made dramatic, positive achieve-
ments in its S&D program. ROO continues to provide comments and
recommendations regarding proposed guidance and other materials to assist
DOI efforts to protect the integrity of its procurement programs.




                                                                                21
     MMS Employee Sentenced
         Suzan Bacigalupi, a former MMS regional chief of information man-
     agement, was sentenced on November 4, 2009, for submitting fraudulent
     travel vouchers associated with temporary duty travel made in 2005 at the
     time of Hurricane Katrina. Her actions came to our attention as the result
     of an OIG audit of federal purchase card and travel card transactions. Two
     lodging charges identified on Bacigalupi’s travel voucher did not show up
     on her government travel card. Rather, she attempted to obtain reimburse-
     ment for lodging that she claimed having paid for the use of a friend’s
     house. Bacigalupi received a year of probation and restitution of $2,960.

     Contaminants Biologist Resigns
     After Ethical Conflicts
          An FWS contaminants biologist in the Bloomington, IN field office, left
     the agency on October 23, 2009, following confirmation of ethical viola-
     tions. Originally as director and founder of the Indiana Biological Survey-
     Aquatic Research Center (IBS), he represented this organzation in contract
     negotiations with federal and state agencies. Our OIG investigation revealed
     that the biologist represented IBS with several state government organiza-
     tions while employed by FWS, that he abused sick leave while performing
     IBS duties and pursuing outside employment, and that he received more
     than $149,700 in rent through a lease agreement with IBS as well as other
     financial benefits that included unknown sums in the form of royalties and
     book sales. IBS is a committee of the Indiana Academy of Science, and is
     described as a volunteer organization. The biologist became involved with
     it as a volunteer while employed by the U.S. Environmental Protection
     Agency. In 1998, when hired by FWS, he continued to work with IBS, and
     in 2004 he founded the Aquatic Research Center, described as a separate,
     not-for-profit arm of IBS. Although he had informed his supervisor of his
     IBS involvement, his supervisor believed the work to be strictly voluntary,
     consisting of fieldwork performed on weekends. As the biologist’s ethical
     conflicts became clear, he submitted his resignation.




22
Monington Sentenced After Investigation
Reveals Forged Documents
     On February 1, 2010, in U. S. District Court, Rapid City, SD, David
Andrew Monington was sentenced to 10 months incarceration, restitution
in the amount of $5,000 payable to Monington’s former employer, and
36 months of supervised probation upon his release from prison. In ad-
dition, Monington was ordered to pay for his incarceration and undergo
psychiatric treatment as deemed necessary by the U S Probation Office.
He was ordered to self surrender on February 2, 2010 to begin serv-
ing his sentence. The October 2009 Semiannual Report to the Congress
reported on this case when Monington was first indicted.

    The sentencing concluded an investigation that began in December
2007 when BLM initiated a joint inquiry into allegations of fraud con-
cerning Monington, then operating as Midwest Fire Suppression in Miles
City, MT. In order to operate, Monington forged numerous documents
to obtain fire suppression-related employment that allowed him to serve
in supervisory positions. The documents contained forged signatures of
employees with the state governments of South Dakota and Wyoming.
At the conclusion of the sentencing, the judge noted that Monington’s
actions were so egregious as to warrant incarceration and that they in-
dicated he felt he could do whatever he wanted to promote his own self
interest. She noted for the record that his criminal actions had placed fire
fighters at risk.

Grand Jury Indicts Tribal Members
     The Fort Peck Tribal Credit Program is an agency of the Assiniboine
and Sioux Tribes in Montana. It is authorized to issue short and long-
term loans to tribal members, depending on the purpose of the loan.
BIA employees Shelly Devonne Pipe and Paul James Bemer, and tribal
employees Evadna Running Bear, Dolly Diane Crowe, Connie Jean
Smith and Angelita Marie Headdress have been charged with conspiring
with others to embezzle, steal, and willfully misapply at least $1 million
in fraudulent loans and lost interest income. Their objective was to obtain




                                                                               23
     funds from tribal bank accounts, using the Fort Peck Tribal Credit Program,
     which allowed them to issue and approve tribal loans and miscellaneous
     payments to federal and tribal employees of the credit office.

         On January 20, 2010, defendants were indicted on 13 felony violations
     including Conspiracy to Embezzle Funds from the Fort Peck Credit Pro-
     gram, Embezzlement, Conspiracy to Obstruct a Federal Audit, Obstruction
     of a Federal Audit and Conversion of Property by a Federal Employee.

        On February 23, 2010, the six defendants appeared in U. S. District
     Court in Great Falls, MT. Each entered a plea of not guilty to the indict-
     ment. Shelly Pipe, the loan specialist, has been placed on indefinite sus-
     pension without pay pending the resolution of criminal proceedings. Paul
     Bemer, a former loan assistant, resigned from federal service in December
     2009. All four tribal employees were fired from their positions by the Fort
     Peck Tribes in July 2009.




24
                                                                              Back to Toc
The western United States is a focal point for many
DOI programs, particulary those that involve water
distribution. Photo from Navajo Lands area by Bryan Brazil.




                                                              25
               Appendices


     Horseshoe Bend, where the Colorado River meanders
     through Page, Arizona. The headwaters are in Rocky
     Mountain National Park. The river serves numerous
     communities before it reaches the Gulf of California.




26
                                                                                                                                                      Appendix One




STATISTICAL HIGHLIGHTS
Investigative Activities
Cases Closed................................................................................................................................................ 269
Cases Opened.............................................................................................................................................. 265
Hotline Complaints/Inquiries Received.................................................................................................. 134

Criminal Prosecution Activities
Indictments/Informations..............................................................................................................................11
Convictions.......................................................................................................................................................18
Sentencings......................................................................................................................................................... 8
      - Jail.............................................................................................................................................. 49 months
      - Criminal Penalities.................................................................................................................... $222,551
      - Probation ............................................................................................................................. 204 months
      - Community Service............................................................................................................... 240 hours
Criminal Matters Referred for Prosecution.............................................................................................19
Criminal Matters Declined This Period.....................................................................................................20

 Civil Investigative Activities
Civil Referrals.................................................................................................................................................... 5
Civil Declinations.............................................................................................................................................. 4

 Administrative Investigative Activities
Removals............................................................................................................................................................. 3
Resignations....................................................................................................................................................... 1
Suspensions....................................................................................................................................10 (97 days)
Retirements........................................................................................................................................................ 2
Reprimands/Counseling.................................................................................................................................12
Reassignments/Transfers................................................................................................................................. 1
General Policy Actions...................................................................................................................................17
Contractor Suspensions.................................................................................................................................. 3
Contractor Debarments...............................................................................................................................21
Bureau Non-Responsive*..............................................................................................................................25
		      (Bureau of Indian Affairs – 17; Bureau of Indian Education – 3; National Park Service – 5)
* Bureau Non-Responsive is a category indicating failure by a bureau to respond to referral for administrative action.

                                                                                                                                                                          27
     Appendix One




        STATISTICAL HIGHLIGHTS
        Audit and Evaluation Related Activities
        Reports Issued........................................................................................................................................... 35

        	     Performance Audits, Financial Audits, Evaluations, Inspections, and Verifications.................25
        	     Contract and Grant Audits.............................................................................................................. 10

        Audit and Evaluation Impacts
        Total Monetary Impacts........................................................................................................... $5,654,928
        	     Questioned Costs (includes unsupported costs)....................................................... $5,149,876
        	     Recommendations That Funds Be Put to Better Use................................................... $505,052



        Audit and Evaluation Recommendations Made................................................................................260

        Audit and Evaluation Recommendations Closed.............................................................................312



       Recovery Oversight Office Activities
        Products Issued......................................................................................................................................... 39

        	     Advisories............................................................................................................................................ 15
        	     Other Products.................................................................................................................................. 24




28
                                                                                                                                             Back to Toc
                                      Appendix One




Wind farms have been proposed for locations far from
land where the wind blows harder and more powerful
turbines can be installed.




                                                       29
 Appendix Two



                Reports Issued During the
                Six-Month Reporting Period
                This listing includes all reports issued during the 6-month period that ended
                March 31, 2010. It provides report number, title, issue date, and monetary
                amounts identified in each report (* Funds To Be Put To Better Use, ** Questioned
                Cost, and *** Unsupported Cost).


                Audits, Evaluations, and Verifications
                Bureau of Indian Affairs
                ER-IN-BIA-0004-2009	            Office of Inspector General’s Independent Report on
                                                the “ONDCP (Office of National Drug Control Policy)
                                                Performance Summary Report - BIA” (11/10/2009).

                C-IS-BIA-0004-2010	             Inspection Report - Museum Collctions: Preservation
                                                and Protection Issues with Collections Maintained by
                                                the Bureau of Indian Affairs (01/29/2010).

                WR-EV-BIA-0015-2009	            Management Advisory Report - Bureau of Indian Af-
                                                fairs’ Contract with the National Native American Law
                                                Enforcement Association Contract No. CBK00090002
                                                (02/02/2010).

                NM-EV-BIE-0003-2008	            Evaluation Report - School Violence Prevention
                                                (02/03/2010).

                Bureau of Land Management
                C-IS-BLM-0005-2010	             Inspection Report - Museum Collections: Preservation
                                                and Protection Issues with Collections Maintained by
                                                the Bureau of Land Management (01/29/2010).

                WR-IS-BLM-0001-2010	            Letter Report to the Honorable John Culberson
                                                Concerning the Emerald Mountain Land Exchange in
                                                Northwest Colorado (03/03/2010).

                Bureau of Reclamation
                C-IS-BOR-0006-2010	             Inspection Report - Museum Collections: Preservation
                                                and Protection Issues with Collections Maintained by
                                                the Bureau of Reclamation (01/29/2010).




30
                                                                             Appendix Two




Multi-Office Assignments
X-IN-MOA-0001-2010	         Independent Auditors’ Report on the Department of
                            the Interior Special-Purpose Financial Statements
            .               for Fiscal Years 2009 and 2008 (11/16/2009).

X-IN-MOA-0018-2009	         Independent Auditors’ Report on the Department of
                            the Interior Financial Statements for Fiscal Years
                            2009 and 2008 (11/16/2009).

C-IN-MOA-0010-2008	         Final Audit Report, “Department of the Interior
                            Accountability and Preservation of Museum Collec-
                            tions” (12/16/2009).

C-EV-MOA-0003-2009	         Evaluation Report - Department of the Interior’s
                            Roads Program - The Dangers of Decentralization
                            (02/01/2010).

CR-IS-MOA-0004-2009	        Inspection Report - BLM and MMS Beneficial Use
                            Deductions (03/08/2010).

C-IN-MOA-0004-2009	         Evaluation Report - Geothermal Royalties
                            (03/09/2010).

X-IN-MOA-0002-2010	         Management Letter Concerning Issues Identified
                            During the Audit of the Department of the Interior
                            Financial Statements for Fiscal Years 2009 and
                            2008 (03/10/2010).

National Park Service
B-EV-NPS-0001-2010	         DC Water and Sewer Payment - 4th Quarter 2009
                            (11/03/2009).

C-IS-NPS-0008-2010	         Inspection Report - Museum Collections: Preserva-
                            tion and Protection Issues with Collections Main-
                            tained by the National Park Service (01/29/2010).

Office of Insular Affairs
VI-IS-VIS-0005-2009	        Evaluation Report - Closeout Review of Watch
                            Quota Data for Tropex Watch Company for Calen-
                            dar Year 2009 (11/13/2009).




                                                                                            31
 Appendix Two




                VI-EV-VIS-0002-2009	      Evaluation Report - Energy Production in the Virgin
                                          Islands (12/28/2009).

                VI-IS-VIS-0004-2009	      Inspection Report - Security Improvements at
                                          the Governor’s Private Residence (01/19/2010)
                                          **$490,000.

                Office of the Secretary
                WR-EV-OSS-0012-2009	      Evaluation Report on the Department of the
                                          Interior’s Appraisal Operations (12/23/2009).

                Office of the Special Trustee
                Q-IN-OST-0001-2009	       Independent Auditors’ Report on the Tribal and
                                          Other Trust Funds Financial Statements for Fiscal
                                          Year 2009 and Fiscal Year 2008 (11/18/2009).

                Q-IN-OST-0002-2009	       Independent Auditors’ Report on the Individual
                                          Indian Monies Trust Funds Financial State-
                                          ments for Fiscal Year 2009 and Fiscal Year 2008
                                          (11/18/2009).

                Q-IN-OST-0003-2009	       Management Letter Concerning Issues Identified
                                          During the Aduit of the Office of the Special
                                          Trustee for American Indians Individual Monies
                                          (IIM), and Tribal and Other Trust Funds Finan-
                                          cial Statements for Fiscal Years 2009 and 2008
                                          (11/18/2009).

                U.S. Fish and Wildlife Service
                C-IS-FWS-0007-2010	       Inspection Report - Museum Collections: Pres-
                                          ervation and Protection Issues with Collections
                                          Maintained by the Fish and Wildlife Service
                                          (01/29/2010).




32
                                                                             Appendix Two




Contract and Grant Audits
Bureau of Reclamation
K-CX-BOR-0005-2009	       Columbia Resource Conservation District’s
                          Proposal for a Cost Reimbursement Contract
                          With the Bureau of Reclamation Under Solicita-
                          tion No. 09SP200107B, for the Operation and
                          Maintenance of the Columbia Mowry Distribu-
                          tion Facilities (12/04/2009) *$505,202.

National Park Service
K-CX-NPS-0006-2009	       Westwind Contracting, Inc. Settlement Proposal
                          for Termination for Convenience of the Govern-
                          ment under Contract No. C5297080232, Hole in
                          the Donut Remediation in Everglades, With the
                          National Park Service (11/24/2009) **$321,946
                          ***$27,149.

U.S. Fish and Wildlife Service
R-GR-FWS-0008-2009	       U.S. Fish and Wildlife Service Wildlife and
                          Sport Fish Restoration Program Grants Awarded
                          to the Commonwealth of Pennsylvania Game
                          Commission From July 1, 2006, Through June
                          30, 2008 (11/12/2009) ***$2,689,153.

R-GR-FWS-0005-2009	       U.S. Fish and Wildlife Service Wildlife and
                          Sport Fish Restoration Program Grants Awarded
                          to the State of Texas Parks and Wildlife Depart-
                          ment, From September 1, 2006, Through August
                          31, 2008 (11/13/2009) **$431,233 ***$779,624.

R-GR-FWS-009-2009	        U.S. Fish and Wildlife Service Wildlife and
                          Sport Fish Restoration Program Grants Awarded
                          to the Commonwealth of Puerto Rico Depart-
                          ment of Natural and Environmental Resources,
                          From July 1, 2006, Through June 30, 2008
                          (12/03/2009).




                                                                                            33
 Appendix Two




                R-GR-FWS-0006-2009	        U.S. Fish and Wildlife Service Wildlife and Sport
                                           Fish Restoration Program Grants Awarded to the
                                           American Samoa Government, Department of
                                           Marine and Wildlife Resources, From October 1,
                                           2006, Through September 30, 2008 (12/07/2009)
                                           **$14,996 ***$1,629.

                R-GR-FWS-0007-2009	        U.S. Fish and Wildlife Service Wildlife and Sport
                                           Fish Restoration Program Grants Awarded to the
                                           State of Nevada Department of Wildlife, From
                                           July 1, 2006, Through June 30, 2008 (01/15/2010)
                                           ***$271,588.

                R-GR-FWS-0011-2009	        U.S. Fish and Wildlife Service Wildlife and
                                           Sport Fish Restoration Program Grants Awarded
                                           to the State of Utah Department of Natural
                                           Resources, Division of Wildlife Resources, From
                                           July 1,2006, Through June 30, 2008 (01/29/2010)
                                           ****$302,431.

                R-GR-FWS-0002-2010	        U.S. Fish and Wildlife Service Wildlife and Sport
                                           Fish Restoration Program Grants Awarded to the
                                           State of Massachusetts, Department of Fish and
                                           Game, Division of Fisheries and Wildlife, From
                                           July 1, 2007, to June 30, 2009 (02/18/2010).

                R-GR-FWS-0010-2009	        U.S. Fish and Wildlife Service Wildlife and Sport
                                           Fish Restoration Program Grants Awarded to the
                                           District of Columbia, Department of the Environ-
                                           ment, From October 1, 2006, Through September
                                           30, 2008 (02/26/2010) **$43,838 ***$100,358.

                Recovery Oversight Office Reviews
                Bureau of Indian Affairs
                ROO-ROA-BIA-2007-2009	     Recovery Oversight Advisory – BIA’s Lack of
                                           Compliance in Properly 	Reporting Contract Actions
                                           (11/24/2009).

                ROO-ROA-BIA-2005-2010	     Recovery Oversight Advisory – Bureau of Indian
                                           Affairs Construction Workforce On-the-Job Train-
                                           ing in Maintenance Program (02/04/2010).




34
                                                                             Appendix Two




Bureau of Land Management
ROO-ROA-BLM-S005-2010	      Review of Potential Competition Irregularities
                            at Oregon State Bureau of Land Management
                            (12/31/2009).

ROO-ROA-BLM-3001-2010	      Recovery Oversight Advisory – Bureau of Land
                            Management State Office Early Implementation
                            Efforts and Project Tracking (01/14/2010).

Bureau of Reclamation
ROO-ROA-BOR-4001-2010	      Recovery Oversight Advisory – Weber Si-
                            phon Project, Solicitation No. 09SP101727
                            (02/25/2010).

Multi-Office Assignments
ROO-ROA-MOA-1017-2009	 Recovery Oversight Advisory – Use of Recovery
                       Act Funds for Aquariums (10/06/2009).

ROO-IN-MOA-A001-2009	       Recovery Oversight Audit – Interim Audit
                            Report of Recovery Act Data Quality Review
                            (10/30/2009).

ROO-ROA-MOA-1013-2009	 Recovery Oversight Advisory – Concerned About
                       Catalog of Federal Domestic Assistance Numbers
                       (11/24/2009).

ROO-ROA-MOA-1016-2009	 Recovery Oversight Advisory – Youth Coopera-
                       tive Agreements at Mount Rainier National Park
                       (01/10/2010).

ROO-ROA-MOA-1008-2009	 Recovery Oversight Advisory – Ongoing Chal-
                       lenges with Clarity of Roles and Responsibilities
                       and Analysis of Acquisition Workforce Capacity
                       (01/27/2010).

ROO-ROA-MOA-1017-2010	 Recovery Oversight Advisory – Indefinite
                       Delivery-Indefinite Quantity Contract Awards
                       (03/31/2010).




                                                                                            35
 Appendix Two




                U.S. Fish and Wildlife Service
                ROO-ROA-FWS-5003-2010	    Recovery Oversight Advisory – Review of the U.S.
                                          Fish and Wildlife Service Construction and Capital
                                          Improvement Program (02/04/2010).

                ROO-ROA-FWS-5001-2010	    Recovery Oversight Advisory – Problems with
                                          Recovery Act Purchase 	Order No. 10181RM578
                                          for Program Management Services (03/29/2010).

                ROO-ROA-FWS-5004-2010	    Recovery Oversight Advisory – Review of the Se-
                                          lected U.S. Fish and Wildlife Service Cooperative
                                          Agreements (03/31/2010).

                U.S. Geological Service
                ROO-ROA-GSV-7001-2010	    Recovery Oversight Advisory – Concerns
                                          about IDIQ Contract No. 08ERCN0017, et al.
                                          (02/04/2010).




36
                                                                                 Back to Toc
                                      Appendix Two




Hikers at Bryce Canyon National Park in Utah. Managed
by the National Park Service, Bryce is a favorite rec-
reational location for visitors who enjoy the dramatic
geology offered by the park. Photo by Bryan Brazil.




                                                         37
 Appendix Three




     Monetary Resolution Activities
     Table I: Inspector General Reports With Questioned Costs*


     		                                               Number of Reports	   Questioned Costs	   Unsupported Costs


     A.	   For which no management
     	     decision had been made by the
     	     commencement of the reporting
     	     period.	                                           25	           $12,746,560	          $5,344,221

     B.	 Which were issued during the
     	 reporting period.	                                      6	            $4,659,876	          $3,883,442

     		        Total (A+B)	                                   31	           $17,406,436	          $9,227,663

     C.	 For which a management decision
     	 was made during the reporting
     	 period. 	                                              26	           $16,135,605	          $8,612,003

     		        (i) Dollar value of
     		        recommendations that
     		        were agreed to by
     		        management. 		                                                $8,040,876	          $4,321,588

     		        (ii) Dollar value of
     		        recommendations that
     		        were not agreed to by
     		        management. 		                                                $8,094,729	          $4,290,445

     D.	 For which no management
     	 decision had been made by the
     	 end of the reporting period. 	                          5	            $1,270,831	           $615,630




      *Unsupported costs are included in questioned costs.




38
                                                                         Appendix Three




Monetary Resolution Activities
Table II: Inspector General Reports With
Recommendations That Funds Be Put To Better Use
		                                          Number of Reports	    Dollar Value


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.	                                     12	           $17,097,023

B.	 Which were issued during the
	 reporting period. 	                                1	            $505,052

		       Total (A+B)	                              13	           $17,602,075

C.	 For which a management decision
	 was made during the reporting period. 	            1	           $3,206,604

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 		                          $3,206,604

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 		                              $0

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                              12	           $14,395,471




                                                                                          39
                                                                 Back to Toc
 Appendix Four




                 Summary of Reports Over 6 Months
                 Old Pending Management Decisions
                 This listing includes a summary of audit and evaluation reports that were more than 6
                 months old on March 31, 2010, and still pending a management decision. It
                 provides report number, title, issue date, and number of unresolved recommendations.


                 Audits and Evaluations
                 Bureau of Indian Affairs
                 NM-EV-BIE-0001-2008	            Evaluation of Controls to Prevent Violence at Bureau
                                                 of Indian Education Operated Education Facilities
                                                 (08/01/2008); 3 Recommendations.

                 NM-IS-BIA-0002-2008	            Inspection of the Implementation of the Motor
                                                 Vehicle Operation Policy, Bureau of Indian Affairs
                                                 (07/31/2008); 6 Recommendations.

                 WR-IV-BIA-0001-2009	            BIA Alaska Regional Indian Reservation Roads
                                                 Program Rife with Mismanagement and Lacking Pro-
                                                 gram Oversight (02/09/2009); 4 Recommendations.

                 Multi-Office Assignments
                 C-IN-MOA-0004-2007	             Abandoned Mine Lands in the Department of the
                                                 Interior (07/24/2008); 4 Recommendations.

                 Office of Insular Affairs
                 HI-EV-GUA-0002-2008	            Guam’s Tax Collection Activities: Office of Insular
                                                 Affairs Involvement Needed to Achieve Lasting Im-
                                                 provements (11/28/2008);
                                                 2 Recommendations.

                 P-EV-FSM-0001-2007	             Kosrae State, Federated States of Micronesia: Prop-
                                                 erty Accountability Process Needs To Be Improved
                                                 (10/17/2007); 3 Recommendations.




40
                                                                              Appendix Four




Office of the Secretary
WR-EV-OSS-0005-2008	      Flash Report - Department of the Interior: Risk-
                          ing People and Property by Flying Airplanes in
                          Excess of Federal Aviation Administration and
                          Manufacturer Specifications (02/09/2009);
                          1 Recommendation.

Contracts and Grants
Insular Area Reports
P-GR-NMI-0003-2005	       Evaluation of Saipan Public Health Facility
                          Project: Oversight of Capital Improvement
                          Projects, Commonwealth of the Northern Mariana
                          Islands (06/08/2007); 1 Recommendation.

U.S. Fish and Wildlife Service
R-GR-FWS-0029-2003	       U.S. Fish and Wildlife Service Federal Assistance
                          Grants Administered by the State of Washington,
                          Department of Fish and Wildlife from July 1,
                          2000, through June 30, 2002 (03/31/2004);
                          1 Recommendation.

R-GR-FWS-0025-2003	       U.S. Fish and Wildlife Service Federal Assistance
                          Grants Administered by the State of New York,
                          Department of Environmental Conservation,
                          Division of Fish, Wildlife and Marine Resources,
                          From April 1, 2000, Through March 31, 2002
                          (05/06/2004); 1 Recommendation.

R-GR-FWS-0008-2004	       U.S. Fish and Wildlife Service Federal Assis-
                          tance Grants Administered by the State of Idaho,
                          Department of Fish and Game, From July 1, 2001,
                          Through June 30, 2003 (09/30/2005);
                          15 Recommendations.




                                                                                              41
                                                                 Back to Toc
 Appendix Five




                 Summary of Reports Over 6 Months
                 Old Pending Corrective Action
                 This is a listing of audit and evaluation reports more than 6 months old with
                 management decisions for which corrective action has not been completed. It
                 provides report number, title, issue date, and the number of recommendations
                 without final corrective action. These audits and evaluations continue to be
                 monitored by the Focus Leader for Management Control and Audit Follow-up,
                 Assistant Secretary, Policy, Management and Budget, for completion of
                 corrective action.

                 Bureau of Indian Affairs
                 2003-I-0055	                 Evaluation of the Bureau of Indian Affairs’ Process
                                              to Approve Tribal Gaming Revenue Allocation Plans
                                              (06/11/2003); 3 Recommendations.

                 C-IN-BIA-0017-2005	          Bureau of Indian Affairs, Radio Communications
                                              Program (01/31/2007); 2 Recommendations.

                 X-IN-BIA-0008-2008	          Management Letter Concerning Issues Identified
                                              During the Audit of the Indian Affairs Financial State-
                                              ments for Fiscal Years 2007 and 2006 (02/21/2008);
                                              1 Recommendation.

                 WR-IV-BIA-0001-2009	         BIA Alaska Regional Indian Reservation Roads
                                              Program Rife with Mismanagement and Lacking
                                              Program Oversight (02/09/2009);
                                              3 Recommendations.

                 Bureau of Land Management
                 C-IN-BLM-0013-2005	          Public Safety Issues at the Saginaw Hill Property
                                              Bureau of Land Management (03/15/2005);
                                              1 Recommendation.

                 C-IN-BLM-0012-2007	          Flash Report - Environmental, Health and Safety Is-
                                              sues at Bureau of Land Management Ridgecrest Field
                                              Office Rand Mining District, CA (09/12/2007); 2
                                              Recommendations.




42
                                                                              Appendix Five




C-IN-MOA-0004-2007	        Abandoned Mine Lands in the Department of the
                           Interior (07/24/2008); 2 Recommendations.

WR-IV-BLM-0003-2008	       Immediate Action Needed to Stop the Inappropriate
                           Use of Cooperative Agreements in BLM’s Helium
                           Program (08/19/2008); 5 Recommendations.

C-IN-BLM-0011-2008	        Bureau of Land Management - Mining Claimant
                           Administration (05/04/2009); 3 Recommendations.

WR-IV-BLM-0008-2009	       Senator Feinstein’s Earmark for California
                           Abandoned Mine Lands (06/10/2009);
                           1 Recommendation.

CR-EV-BLM-0002-2009	       Evaluation of Bureau of Land Management’s Oil
                           and Gas Lease Auction Process (08/26/2009);
                           5 Recommendations.

Multi-Office Assignments
C-IN-MOA-0042-2003	        Fleet Management Operations, U.S. Department of
                           the Interior (02/09/2004); 1 Recommendation.

E-IN-MOA-0008-2004	        Department of the Interior Workers’ Compensation
                           Program (05/09/2005); 2 Recommendations.

C-IN-MOA-0049-2004	        Department of the Interior Concessions
                           Management (06/13/2005); 1 Recommendation.

C-IN-MOA-0007-2005	        U.S. Department of the Interior Radio
                           Communications Program (01/30/2007);
                           5 Recommendations.

W-IN-MOA-0086-2004	        Proper Use of Cooperative Agreements Could
                           Improve Interior’s Initiatives for Collaborative
                           Partnerships (01/31/2007); 1 Recommendation.

W-IN-MOA-0008-2005	        Private Uses of Public Lands, National Park
                           Service and Bureau of Land Management
                           (04/10/2007); 1 Recommendation.




                                                                                              43
 Appendix Five




                 C-IN-MOA-0011-2006	     Health and Safety Concerns at Department of the
                                         Interior’s Facilities (03/26/2008);
                                         2 Recommendations.

                 C-IN-MOA-0004-2007	     Abandoned Mine Lands in the Department of the
                                         Interior (07/24/2008); 3 Recommendations.

                 C-IS-MOI-0008-2008	     DOI Fuels Consumption Data is Incorrectly
                                         Reported (11/04/2008); 2 Recommendations.

                 C-EV-MOA-0009-2008	     Evaluation Report on Oil and Gas Production on
                                         Federal Leases: No Simple Answer (02/27/2009);
                                         5 Recommendations.

                 WR-EV-MOI-0006-2008	    Evaluation of the Department of the Interior’s
                                         Accountability of Desktop and Laptop Computers
                                         and their Sensitive Data (04/24/2009);
                                         4 Recommendations.

                 WR-EV-MOI-0008-2008	    Employee Relocation, U.S. Department of the
                                         Interior (09/21/2009); 3 Recommendations.

                 WR-EV-MOA-0004-2008	    Evaluation of Department of the Interior Challenge
                                         Cost Share Programs (09/25/2009);
                                         24 Recommendations.

                 WR-IS-MOA-0019-2009	    Follow-up to OIG’s 2008 Evaluation Report,
                                         “Interior Misstated Achievement of Small Busi-
                                         ness Goals by Including Fortune 500 Companies
                                         (Report No. W-EV-MOI-003-2008)” (09/29/2009);
                                         2 Recommendations.

                 National Park Service
                 1998-I-0406	            Follow-up of Recommendations Concerning
                                         Utility Rates Imposed by the National Park Service
                                         (04/15/1998); 5 Recommendations.

                 2002-I-0045	            Recreational Fee Demonstration Program -
                                         National Park Service and Bureau of Land Man-
                                         agement (08/19/2002); 1 Recommendation.




44
                                                                            Appendix Five




P-IN-NPS-0105-2003	       National Park Service Management of
                          Selected Grants in Hawaii (07/30/2004);
                          2 Recommendations.

P-IN-NPS-0074-2004	       Hawaii Volcanoes National Park: Improved
                          Operations Should Enhance Stewardship and
                          Visitor Experience (03/31/2006);
                          2 Recommendations.

C-IN-NPS-0007-2007	       Flash Report - National Park Service: Hazard-
                          ous Condition of Yosemite’s Wawona Tunnel
                          Endangers Lives (06/20/2007);
                          1 Recommendation.

C-IN-MOA-0004-2007	       Abandoned Mine Lands in the Department of
                          the Interior (07/24/2008); 2 Recommendations.

Y-EV-NPS-0004-2008	       History Collection in Jeopardy at Harpers Ferry
                          Center (07/25/2008); 1 Recommendation.

C-IN-MOA-0006-2007	       DOI’s Hurricane Rebuilding Efforts
                          (09/03/2008); 2 Recommendations.

Office of the Special Trustee
Q-CX-MOA-0005-2006	       Chavarria, Dunne, and Lamey LLC
                          Contract Deliverables (06/27/2008);
                          2 Recommendations.

Q-IN-OST-0002-2008	       Independent Auditors’ Report on the
                          Individual Indian Monies Trust Funds
                          Financial Statements for Fiscal Years 2008
                          and 2007 (11/18/2008);
                          1 Recommendation.

Q-IN-OST-0004-2008	       Independent Auditors’ Report on the Tribal and
                          Other Trust Funds Financial Statements for Fis-
                          cal Years 2008 and 2007 (11/18/2008);
                          1 Recommendation.




                                                                                            45
 Appendix Five




                 Office of the Secretary
                 WR-EV-OSS-0005-2009	      Aviation Maintenance Tracking and Pilot Inspector
                                           Practices - Further Advances Needed (04/14/0009);
                                           3 Recommendations.

                 ER-EV-PMB-0001-2009	      Reorganization of the Working Capital Fund and
                                           the Interior Franchise Fund (06/09/2009);
                                           5 Recommendations.

                 U.S. Fish and Wildlife Service
                 97-I-1305	                Audit Report on the Automated Law
                                           Enforcement System, U.S. Fish and Wildlife
                                           Service (09/30/1997); 1 Recommendation.

                 C-IN-FWS-0009-2007	       Flash Report - Fish and Wildlife Service:
                                           Jackson National Fish Hatchery In Need of
                                           Immediate Action (05/08/2007);
                                           2 Recommendations.

                 X-IN-FWS-0005-2008	       Management Letter Concerning Issues
                                           Identified During the Audit of the U.S. Fish and
                                           Wildlife Service Financial Statements for Fiscal
                                           Years 2007 and 2006 (01/28/2008);
                                           1 Recommendation.

                 C-IN-MOA-0006-2007	       DOI’s Hurricane Rebuilding Efforts (09/03/2008);
                                           2 Recommendations.

                 X-IN-FWS-0024-2006	       Independent Biennial Auditors’ Report on the Ex-
                                           penditures and Obligations Used by the Secretary
                                           of the Interior in the Administration of the Wildlife
                                           and Sport Fish Restoration Programs for Fiscal
                                           Years 2003 Through 2004 and Fiscal Years 2005
                                           Through 2006 (05/14/2009); 2 Recommendations.




46
                                                                                           Appendix Five




               K-CX-FWS-0004-2009	        Costs Associated with the WECC, Inc. Request
                                          for Equitable Adjustment under Contract No.
                                          401817C012 with the U.S. Fish and Wildlife
                                          Servie (09/30/2009); 1 Recommendation.

               Insular Affairs Reports*
               V-IN-VIS-0004-2005	        Controls Over Video Lottery Terminal
                                          Operations, Government of the Virgin Islands
                                          (06/08/2007); 2 Recommendations.

               P-EV-FSM-001-2007	         Kosrae State, Federated States of Micronesia;
                                          Property Accountability Process Needs To Be
                                          Improved (10/17/2007); 5 Recommendations.

               V-IN-VIS-0011-2006	        Collection of Outstanding Taxes and Fees,
                                          Government of the Virgin Islands (01/10/2008);
                                          3 Recommendations.

               V-IN-VIS-0001-2007	        Administrative Functions, Roy Lester
                                          Schneider Regional Medical Center, Govern-
                                          ment of the Virgin Islands (07/28/2008);
                                          4 Recommendations.

               P-EV-GUA-0002-2008	        Tax Collection Activities, Government of
                                          Guam, Revitalized Tax Collection and
                                          Enforcement Effort Needed (11/26/2008);
                                          2 Recommendations.

               V-IN-VIS-0003-2007	        U.S. Virgin Islands Workers’ Compensation
                                          Benefits at Risk (11/28/2008);
                                          3 Recommendations.

               VI-IS-VIS-0002-2008	       Final Evaluation Report Virgin Islands
                                          Police Department Evidence Integrity at Risk
                                          (03/31/2009); 10 Recommendations.




*These Insular Area reports contain
recommendations made specifically
to Insular Area governors and other
Insular Area officials, who do not
report to the Secretary of the Interior
and who are not subject to the policy,
guidance, and administrative oversight
established by the Assistant Secretary–
Policy, Management and Budget.
                                                                                                           47
                                                                                 Back to Toc
General Information



       Cross-References to the Inspector General Act
                                                                                                         Page
      Section 4(a)(2)            Review of Legislation and Regulations                                   N/A*

      Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies                           1-25

      Section 5(a)(2)            Recommendations for Corrective Action With Respect to Significant       46-48
                                 Problems, Abuses, and Deficiencies

      Section 5(a)(3)            Significant Recommendations From Agency’s Previous Reports on           40-45
                                 Which Corrective Action Has Not Been Completed

      Section 5(a)(4)            Matters Referred to Prosecutive Authorities and Resulting Convictions     27

      Section 5(a)(5)            Matters Reported to the Head of the Agency                               N/A

      Section 5(a)(6)            Audit Reports Issued During the Reporting Period                        30-36

      Section 5(a)(7)            Summary of Significant Reports                                           1-25

      Section 5(a)(8)            Statistical Table: Questioned Costs                                       38

      Section 5(a)(9)            Statistical Table: Recommendations That Funds Be Put to Better Use         39

      Section 5(a)(10)           Summary of Audit Reports Issued Before the Commencement of the
                                 Reporting Period for Which No Management Decision Has Been Made         40-41

      Section 5(a)(11)           Significant Revised Management Decisions Made
                                 During the Reporting Period                                              N/A

      Section 5(a)(12)           Significant Management Decisions With Which
                                 the Inspector General Is in Disagreement                                 N/A

      Section 5(a)(13)           Information Described Under Section 804(b) of the Federal Financial
                                 Management Improvement Act of 1996                                       N/A




       *N/A: Not applicable to this reporting period.




48
                                      General Information




      Contact Us


          By Mail
U.S. Department of the Interior
 Office of Inspector General
       1849 C St. NW
     Mail Stop 4428, MIB
   Washington, DC 20240




       By Internet
       www.doioig.gov



         By Phone
         202.208.4618


          By Fax
         202.208.6062

                   Yosemite at sunset. Photo by Bryan Brazil.




                                                                49
